<html>
<title> - FEMA REAUTHORIZATION: RECOVERING QUICKER AND SMARTER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         FEMA REAUTHORIZATION:
                     RECOVERING QUICKER AND SMARTER

=======================================================================

                                (113-35)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                  U.S. GOVERNMENT PRINTING OFFICE
82-819                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2047504f604355535448454c500e434f4d0e">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
THOMAS E. PETRI, Wisconsin           ANDRE CARSON, Indiana
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD, Arkansas      Columbia
BLAKE FARENTHOLD, Texas, Vice Chair  MICHAEL H. MICHAUD, Maine
MARKWAYNE MULLIN, Oklahoma           TIMOTHY J. WALZ, Minnesota
MARK MEADOWS, North Carolina         DONNA F. EDWARDS, Maryland
SCOTT PERRY, Pennsylvania            RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
BILL SHUSTER, Pennsylvania (Ex       NICK J. RAHALL, II, West Virginia
    Officio)                           (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Joseph L. Nimmich, Associate Administrator, Office of Response 
  and Recovery, Federal Emergency Management Agency..............     5
Yolanda Chavez, Deputy Assistant Secretary for Grant Programs, 
  Office of Community Planning and Development, U.S. Department 
  of Housing and Urban Development...............................     5
James Rivera, Associate Administrator, Office of Disaster 
  Assistance, U.S. Small Business Administration.................     5

                                Panel 2

Glenn M. Cannon, Esq., Director, Pennsylvania Emergency 
  Management Agency, on behalf of the National Emergency 
  Management Association.........................................    24
Gayland Kitch, Director of Emergency Management, City of Moore, 
  Oklahoma, on behalf of the U.S. Council of the International 
  Association of Emergency Managers..............................    24
Michael O. Finley, Chairman, Confederated Tribes of the Colville 
  Reservation....................................................    24

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Joseph L. Nimmich................................................    36
Yolanda Chavez...................................................    64
James Rivera.....................................................    70
Glenn M. Cannon, Esq.............................................    73
Gayland Kitch....................................................    84
Michael O. Finley................................................    93

                       SUBMISSIONS FOR THE RECORD

Hon. Lou Barletta, a Representative in Congress from the State of 
  Pennsylvania, request to submit written statement from the 
  BuildStrong Coalition..........................................    15
Joseph L. Nimmich, Associate Administrator, Office of Response 
  and Recovery, Federal Emergency Management Agency, responses to 
  questions for the record from the following Representatives:

    Hon. Lou Barletta, of Pennsylvania...........................    47
    Hon. Nick J. Rahall, II, of West Virginia....................    59
    Hon. Dina Titus, of Nevada...................................    62

[GRAPHIC] [TIFF OMITTED] T2819.001

[GRAPHIC] [TIFF OMITTED] T2819.002

[GRAPHIC] [TIFF OMITTED] T2819.003

[GRAPHIC] [TIFF OMITTED] T2819.004

[GRAPHIC] [TIFF OMITTED] T2819.005

[GRAPHIC] [TIFF OMITTED] T2819.006

[GRAPHIC] [TIFF OMITTED] T2819.007



                         FEMA REAUTHORIZATION:
                     RECOVERING QUICKER AND SMARTER

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2013

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order. First I 
would like to welcome our new subcommittee ranking member, Mr. 
Carson.
    Mr. Carson. Thank you.
    Mr. Barletta. I look forward to working closely with him on 
these important issues. And I also want to thank Ranking Member 
Norton for a decade of service as either ranking or chairman of 
this subcommittee. I know she will continue to be active, an 
active member of this subcommittee. I look forward to working 
with her on these issues.
    I also want to welcome Mr. Cannon, who will be on the 
second panel today. He is from my home State of Pennsylvania, 
and serves as director of the Pennsylvania Emergency Management 
Agency. I look forward to hearing from him today.
    Before we begin, I want to take a moment to send our 
prayers to the people of Colorado. Just this past weekend, a 
major disaster declaration was issued for the severe storms, 
flooding, landslides, and mudslides that began on September 
11th. Thousands of homes have been damaged or destroyed, and 
the search and rescue operations are ongoing. Tragically, there 
have been deaths and many still unaccounted for. We know, even 
after the storms have passed and the rescue and response 
operations are completed, these communities will continue to 
face a devastating situation.
    They will be tasked to try and put their lives back 
together again, and rebuild their homes, businesses, and 
communities, a process that has been bogged down with red tape, 
creating a bureaucratic nightmare for communities already 
devastated by the loss of loved ones, and by the disaster 
itself. It is for this reason, earlier this year, we enacted 
the Sandy Recovery Improvement Act. That Act included key 
provisions to streamline the rebuilding process following 
disasters.
    The purpose of the hearing today is to review how those 
reforms are being applied and implemented, and how they can 
help communities like those in Colorado rebuild faster. We will 
examine how these reforms are currently being used in the 
recovery efforts to Hurricane Sandy, the tornadoes in Oklahoma, 
and other recent disasters. We will also examine how we ensure 
effective coordination among Federal, State, tribal, and local 
agencies, in helping communities recover quicker and smarter.
    Last October Hurricane Sandy made landfall and brought with 
it storm surges of more than 11 feet, killing more than 100 
people, destroying or damaging thousands of homes, and leaving 
more than 8 million people without power. Communities and 
States all along the eastern seaboard were hit, including my 
home State of Pennsylvania. Just this May we saw Oklahoma hit 
by an F-5 tornado with winds up to 210 miles per hour and over 
a mile wide, devastating homes and businesses and leaving 
dozens dead, including children and infants.
    We know we will have natural disasters. We know we can 
expect hurricanes, tornadoes, flooding, wildfires, and even 
earthquakes. We cannot stop them. But we can prepare, mitigate 
against, and plan for recovery to minimize their impact.
    There have been a lot of lessons learned from previous 
disasters. Following Hurricane Katrina, we saw and continue to 
see, years after that disaster, the rebuilding still ongoing. 
When communities are devastated by disasters, and people have 
lost loved ones, their homes, the businesses where they worked, 
and their communities, we must do better at helping those 
communities recover and rebuild and put their lives back 
together again. A lengthy rebuilding process riddled with red 
tape serves no one. It not only prolongs the harm to those 
communities, but it results in higher costs. The longer it 
takes to recover, the more it costs to rebuild, and the more of 
an impact there is on the local economies.
    While Congress enacted the Post-Katrina Act to reform 
preparedness and planning for disasters, recovery remained a 
slow, costly, and frustrating process. In January of this year, 
Congress enacted the Sandy Recovery Improvement Act of 2013. 
That Act incorporated many of the reforms this committee 
crafted to streamline and reduce costs in the recovery process. 
That bill included reforms to cut the red tape in debris 
removal and public assistance for public infrastructure and 
building projects by allowing States to choose to receive 
funding based on cost estimates and consolidate projects. The 
bill also required FEMA to finally clarify its criteria for the 
individual and household assistance, so that States can have a 
better idea when their constituents will qualify for aid.
    We also worked to encourage more advance funding for 
mitigation, so communities can rebuild smarter and better. 
These and other reforms in that legislation should help ensure 
communities can rebuild faster and in ways that make the most 
sense for them. But while FEMA is the lead agency in disasters, 
we know their Federal partners are critical. HUD, for example, 
through its community block grant program, is a key component 
to the rebuilding process. SBA is critical in ensuring business 
owners and homeowners can obtain affordable financing in their 
rebuilding process.
    I know how important these partners are. When my district 
was hit by Hurricane Irene and homes and businesses were 
flooded, I saw how important SBA loans were in the rebuilding 
process. I was concerned and continue to be concerned about the 
affordability of SBA's loans.
    When people have lost everything from a disaster, we must 
ensure we do what is possible to help them. That is why I 
introduced the Disaster Loan Fairness Act of 2013. That bill is 
intended to make SBA loans more affordable for borrowers, 
including homeowners, following a disaster. I hope to work with 
the SBA on solutions to this issue.
    And I look forward to hearing from the witnesses today who 
represent all levels of Government--Federal, State, tribal, and 
local--to hear how the recovery efforts are going in recent 
disasters, how the Sandy reforms are being implemented, and 
recommendations on any further improvements to the process. I 
thank all of the witnesses for being here today.
    I now call on the new ranking member of the subcommittee, 
Mr. Carson, for a brief opening statement.
    Mr. Carson. Thank you, Chairman. Good morning, and welcome 
to our distinguished panel of witnesses. I am very pleased to 
be here this morning for my first hearing as the ranking member 
of this subcommittee.
    Chairman Barletta, I look forward to working with you as we 
advance issues of importance to the subcommittee, and hope we 
can continue to work in a bipartisan manner in which you have 
worked with the legendary Madam Eleanor Holmes Norton.
    While new to this subcommittee, I am not new to emergency 
management. As a former law enforcement officer, I have 
experience as a first responder. I have also worked on homeland 
security issues, and I understand the need to prepare for 
disasters, as well as the challenges facing our emergency 
responders.
    No place, including my district, is immune from potential 
disasters and emergencies. In Indianapolis, we have experienced 
severe windstorms, tornadoes, and floods. We are located close 
enough to the New Madrid seismic zone that my district could 
potentially be impacted by earthquakes. Unfortunately, I 
understand that disasters can sometimes result in the loss of 
life. My thoughts and prayers go out to those families and 
communities still struggling to recover from recent disasters, 
including the ongoing efforts in Colorado.
    And I sympathize with our witnesses who are here today. 
Even as you are still mourning your friends and neighbors, 
after any disaster the recovery phase is a very important step, 
helping disaster survivors to heal and provide communities with 
an opportunity to implement long-term goals.
    This morning's hearing on quicker and smarter recovery is 
essential to identifying any unnecessary delays during the 
recovery process. The challenges faced by one community may 
actually be faced by several communities. It is through 
hearings like this that we can identify problems, raise public 
awareness of the issues, and seek solutions to these problems.
    Earlier this year, Congress passed the Sandy Recovery 
Improvement Act of 2013, known as the Sandy Reform Act. The 
Sandy Reform Act included many reforms to address issues raised 
in prior oversight hearings, and is intended to expedite and 
streamline the recovery process. It included several tools to 
ensure that FEMA operates in a more efficient and logistical 
manner--and logical manner, for that matter--such as expanding 
on FEMA's cost-estimating authority, clarifying FEMA's 
authority to delegate certain authorities to States, and 
requiring FEMA to update its regulations for determining when 
individual assistance will be provided. I look forward to an 
update from FEMA on the status of implementation of these and 
other Reform Act provisions.
    Finally, Congress appropriated over $60 billion for Sandy 
relief. And I am interested in hearing from different agencies 
about the status of these funds. So, thank you, Mr. Chairman, 
for calling today's hearing, and I thank the witnesses for your 
testimony.
    Mr. Barletta. Thank you, Ranking Member Carson. And now I 
would like to recognize Representative Mullin of Oklahoma to 
introduce Gayland Kitch, director of emergency management, city 
of Moore, Oklahoma, who will be on our second panel. Mr. 
Mullin?
    Mr. Mullin. Thank you, Chairman. And it's an absolute honor 
to introduce Mr. Kitch this morning. The first time that we had 
an opportunity to meet was the day after the tornado that hit 
Moore. And, as you can probably expect, it was extremely hectic 
that day. And we had flown in, went to the command center, 
which was at a fire station. We walk in with the entire 
delegation, the Governor is there, and they introduce Mr. Kitch 
as the emergency management for Moore.
    He spoke a little bit and went to the side and I walked 
over there to him and I asked him how he was holding up. And he 
told me something that I will probably never forget. He says, 
``Unfortunately, I have been through this twice already,'' 
because, see, Moore's been hit by now three major tornadoes. 
And he says, ``Unfortunately, I have been through this twice.'' 
He says, ``Fortunately, this is my third time to deal with 
this, and we know how to act.'' And man, did they ever.
    Moore picked themselves up and was moving fast, the 
citizens of Moore, the emergency response of Moore was all 
moving, and it is because of the leadership that is absolutely 
irreplaceable when we have someone like Mr. Kitch in place. And 
it is an honor to have you here, it is an honor to have you 
here, it is an honor to hear what you have to say, and what you 
have learned, and from the mistakes that you learn. You know, 
we can all learn from our mistakes sometimes more than we can 
our successes.
    And so, thank you. It is an honor to introduce you. Thank 
you for taking this trip to be here.
    By the way, he said it is his first time to be to DC, too. 
So I hope you get to enjoy the time while you are here, sir. I 
yield back.
    Mr. Barletta. Thank you, Representative Mullin.
    We have two panels of witnesses today. On our first panel 
we have Mr. Joseph L. Nimmich, Associate Administrator for the 
Office of Response and Recovery, Federal Emergency Management 
Agency. We have Ms. Yolanda Chavez, Deputy Assistant Secretary 
for Grant Programs, Office of Community Planning and 
Development, U.S. Department of Housing and Urban Development; 
Mr. James Rivera, Associate Administrator, Office of Disaster 
Assistance, U.S. Small Business Administration.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Barletta. Without objection, so ordered. Since your 
written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Mr. Nimmich, you may proceed.

TESTIMONY OF JOSEPH L. NIMMICH, ASSOCIATE ADMINISTRATOR, OFFICE 
OF RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY; 
YOLANDA CHAVEZ, DEPUTY ASSISTANT SECRETARY FOR GRANT PROGRAMS, 
 OFFICE OF COMMUNITY PLANNING AND DEVELOPMENT, U.S. DEPARTMENT 
 OF HOUSING AND URBAN DEVELOPMENT; AND JAMES RIVERA, ASSOCIATE 
   ADMINISTRATOR, OFFICE OF DISASTER ASSISTANCE, U.S. SMALL 
                    BUSINESS ADMINISTRATION

    Mr. Nimmich. Mr. Chairman, Ranking Member Carson, members 
of the subcommittee, good morning. As you have indicated, I am 
Joe Nimmich, the Associate Administrator for the Office of 
Response and Recovery at FEMA. I am here today to discuss how 
FEMA is assisting communities affected by Hurricane Sandy, the 
tornadoes in Oklahoma, the numerous floods in the East, 
Midwest, Alaska, and now Colorado, and how the new authorities 
provided by Congress under the Sandy Recovery Improvement Act 
of 2013 allow us to better help disaster survivors and 
communities rebuild.
    I need to thank the subcommittee for its important role in 
providing the Agency with the additional authorities included 
in the Act. I was on the ground after the tornadoes hit in 
Oklahoma, and just returned from Colorado. I can report 
firsthand on FEMA's support to survivors and communities.
    At FEMA, our entire team is committed to helping survivors 
get back on the road to recovery. And that guides our approach 
to everything we do, whether that be stabilizing an area in 
support of first responders, providing public or individual 
assistance, or supporting the rebuilding of long-term 
infrastructure in an affected area.
    We are also pleased that our efforts in support of 
survivors of Hurricane Sandy garnered the support of the DHS's 
Office of Inspector General, which recently concluded in their 
report titled, ``FEMA's Initial Response in New Jersey to 
Hurricane Sandy,'' that FEMA had performed well in the response 
to Hurricane Sandy in the State of New Jersey.
    Outlined in the report--and I quote--``FEMA normally 
requires several days to deploy and position staff to areas 
of--for disaster response. In this instance, FEMA had 
facilities and staff in New Jersey when Sandy made landfall. 
FEMA's access to the resources allowed a fast and effective 
response. FEMA prepared well for the disaster, faced challenges 
with innovative solutions, quickly resolved shortfalls, made 
efficient disaster sourcing decisions, overcame obstacles, and 
coordinated its activities effectively with State and local 
officials. All disasters generate unexpected issues. But the 
FEMA disaster team was able to adjust and adapt to fulfill its 
mission efficiently and effectively.''
    FEMA's success comes not only from the all-out deployment 
of critical staff, but from creative and innovative ways to 
support survivors and communities. FEMA partnered with the 
National Geospatial Intelligence Agency to analyze satellite 
and aerial imagery to determine which areas were inaccessible, 
allowing immediate support to survivors. This partnership 
continues to grow, allowing FEMA to identify houses that were 
destroyed or had major damage, expediting individual housing 
support, not just in Sandy, but in Oklahoma and already in 
Colorado.
    FEMA has improved its processes to establish disaster 
recovery centers, helping inform and register survivors for 
quicker assistance. In addition to the DRC's, FEMA now employs 
disaster survivor assistance teams who go door to door in many 
areas, helping residents who have lost power and Internet 
access sign up for the disaster relief that they need.
    At the same time we are supporting the communities impacted 
by Sandy, we are actively implementing the Sandy Recovery 
Improvement Act, which authorizes several significant changes 
to the way FEMA delivers disaster assistance, making us more 
flexible and efficient. All elements of the Sandy Recovery 
Improvement Act are being implemented on time: public 
assistance alternative procedures for permanent work; public 
assistance alternative procedures for debris removal; and 
dispute resolution/arbitration are most apparent in affecting 
communities. And you will hear from Moore, Oklahoma, how the 
public assistance alternative procedures for debris removal has 
helped their recovery.
    On one of the major provisions of the Sandy Recovery 
Improvement Act gives federally recognized tribal governments 
the option of requesting an emergency or major disaster 
declaration through FEMA to the President, instead of going 
through their representative States. To date, four tribal 
disasters have already been declared by the President.
    Improvements in FEMA's response capabilities and Sandy 
Recovery Act improvements have played out in both Oklahoma and 
Colorado. On the 20th of May, the State of Oklahoma received a 
major Presidential disaster declaration, and within 12 hours of 
touchdown we had FEMA employees in place, helping. Our enhanced 
incident management teams were deployed and working in Colorado 
within a day of the start of the disaster, and well before the 
flooding finished.
    Pursuant to the Sandy Recovery Improvement Act, FEMA also 
implemented the debris pilot program in Oklahoma to expedite 
the removal of debris, which allows the community to rebuild 
and recover more quickly. The program has been successful. As 
of September 4th of this year, 96 percent of the debris has 
been removed; 40 percent was removed within the first 30 days.
    And just like after Sandy, we are focusing on helping 
communities build stronger. Oklahoma is already receiving 
expedited funds to pay for approved mitigation projects; $3.6 
million in HMGP funding is obligated to date.
    At FEMA we seek constant improvement to better support 
America's disaster survivors, the citizens, and first 
responders, through constant improvement. And by the authority 
given to us by Congress under the Sandy Recovery Improvement 
Act, we are confident that we can be more effective and 
efficient in each new event. Our ultimate goal, of course, is 
to support our fellow Americans, providing survivors the 
assistance, flexibility, and incentives they need to start the 
recovery process.
    We look forward to continuing our work with Congress 
towards this common goal. Thank you, and I am happy to answer 
any questions you may have.
    Mr. Barletta. Thank you for your testimony, Mr. Nimmich.
    Ms. Chavez, you may proceed.
    Ms. Chavez. Good morning, Chairman Barletta, Ranking Member 
Carson, and members of the subcommittee. Thank you for the 
opportunity to testify regarding the Department's recovery 
efforts for Sandy and post-Sandy disasters. This morning I will 
address the following five areas: Federal agency coordination; 
the policies that HUD has implemented to ensure that community 
development block grant disaster recovery, or CDBGDR funds, do 
not duplicate assistance provided by other Federal agencies; as 
well as the policies we have implemented to prevent waste, 
fraud, and mismanagement. I will also touch upon the status of 
the allocations under the Disaster Relief Appropriations Act of 
2013 and the areas in which we may improve recovery efforts.
    In the aftermath of Superstorm Sandy, President Obama 
directed Secretary Donovan to lead the Federal response, and 
issued an Executive order creating the Hurricane Sandy 
Rebuilding Task Force. The task force has developed a 
comprehensive regional rebuilding strategy which includes 
recommendations for enhanced Federal coordination.
    The Secretary and the Department also play a central role 
in the disaster--excuse me--in the national disaster recovery 
framework, or the NDRF. The NDRF is the coordinated 
governmentwide approach to recovery and rebuilding with HUD 
acting to implement the full range of Federal housing 
resources. Federal coordination is also at work in HUD's 
implementation of the Disaster Relief Appropriations Act. Eight 
days after the President signed the law, HUD announced an 
allocation of $5.4 billion to five States and the city of New 
York to begin the Sandy recovery effort. Less than 30 days 
later, HUD published a Federal Register notice outlining the 
requirements for the use of these funds.
    The Department's aggressive implementation of the Sandy 
appropriation would not have been possible without close 
coordination with our partner agencies. HUD relies on data and 
the financial assistance provided by FEMA and SBA to determine 
the unmet housing, economic development, and infrastructure 
needs that remain to be addressed through CDBGDR funds.
    However, as described in greater detail in my written 
testimony, HUD coordination with FEMA has extended beyond data 
sharing. Our work on Sandy has led to expedited historic 
preservation and--to an expedited historic preservation and 
environmental review process.
    With substantial Federal resources flowing to individual 
communities and entire regions, HUD has established policies to 
ensure that our funds are being used to supplement and not 
replace recovery funds from FEMA, SBA, the Army Corps of 
Engineers, and other sources. The Department has published 
guidance to guard against the duplication of benefits, and 
provided training and technical assistance to help State and 
local governments comply with the law.
    In order to prevent waste, fraud, and mismanagement, the 
Department has reinforced its own internal controls with the 
new cradle-to-grave plan for these funds that has been 
submitted to OMB, the GAO, and House and Senate appropriators.
    Moreover, we have committed to an enhanced level of 
technical assistance and monitoring of Sandy grantees with 
biannual, on-site monitoring of each grantee. These efforts are 
only possible because of the $9.5 million in administrative 
funds provided by Congress under the Act. We also meet monthly 
with our Office of Inspector General to identify issues of 
concern, and work jointly on IG and HUD staff training.
    I must note that, prior to the approval of a grantee's 
action plan, HUD must certify that the grantee has the policies 
in place to guard against duplication of benefits, and also 
certify to the adequacy of each grantee's internal financial 
controls and procurement practices.
    The next allocation for Sandy grantees will be informed by 
FEMA data and focus on unmet infrastructure needs. We expect to 
announce that shortly. The Department has also allocated $514 
million to 21 State and local governments for 2011 and 2012 
disasters. This includes about $47.2 million to Luzerne and 
Dauphin Counties in the Commonwealth of Pennsylvania for 
recovery needs from Hurricane Irene and Lee.
    We have also started to address 2013 disasters; $37 million 
was allocated to the city of Moore in the State of Oklahoma for 
recovery from this year's tornadoes. And $28.8 million has been 
allocated to State of Illinois grantees to address damage 
caused by heavy flooding in the spring.
    Finally, providing increased flexibility to Federal 
agencies and improved data accessibility for both agencies and 
grantees will lead to a more timely Federal response.
    Thank you for the opportunity to testify today. I am happy 
to answer any questions you may have.
    Mr. Barletta. Thank you for your testimony, Ms. Chavez.
    Mr. Rivera, you may proceed.
    Mr. Rivera. Good morning, Chairman Barletta, Ranking Member 
Carson, and distinguished members of the subcommittee. Thank 
you for inviting me to discuss SBA's role in Federal disaster 
response and recovery efforts. The SBA Office of Disaster 
Assistance is responsible for providing affordable, timely, 
accessible financial assistance to businesses of all sizes, 
homeowners and renters impacted by disasters.
    Many disaster survivors have insurance, which covers part 
or all of the physical property loss due to a disaster. For 
those losses not covered by insurance, the primary form of 
Federal financial assistance is a low-interest SBA loan. Since 
SBA's inception in 1953, we have approved more than $53 billion 
in disaster loans to almost 2 million families and businesses 
across the country.
    While SBA is not a traditional first responder agency, we 
are on the ground immediately following a disaster. We 
coordinate with Federal, State, and local partners to set up 
disaster and business recovery centers and deploy critical 
financial assistance.
    In the aftermath of a disaster such as Superstorm Sandy and 
the devastating tornado in Moore, Oklahoma, SBA's primary role 
is to provide families and businesses with low-interest, long-
term loans. These disaster loans are a vital source of economic 
stimulus that enables survivors to get back on their feet. 
Under our disaster loan program, homeowners may borrow up to 
$200,000, and business and nonprofit organizations are eligible 
for loans up to $2 million. These funds can be used to assist 
with many uninsured and otherwise uncompensated physical losses 
sustained during a disaster to repair, replace damaged physical 
property.
    In addition to our disaster loan products, we also help 
small businesses recover through our Government contracting and 
business development programs. We aggressively seek to fill 
gaps in the market and provide survivors with access to 
capital, counseling, and contracting they need to rebuild their 
lives and their livelihoods.
    Throughout my career at SBA, I have seen firsthand the 
benefits of the disaster assistance program, perhaps most 
notably in the wake of Superstorm Sandy. Due to the immense--
due to the storm's immense footprint along the densely 
populated east coast, Sandy was one of the most destructive 
natural disasters in recent history. As such, I can assure you 
that SBA leveraged all of our resources to provide timely and 
effective assistance throughout the impacted States.
    Working closely with our response and recovery partners at 
FEMA and HUD, as well as with State and local agencies, we used 
every tool available to assist the maximum number of families 
and businesses affected by the storm. SBA deployed over 390 
disaster specialists to the region, setting up 146 disaster 
recovery centers with FEMA, and 38 disaster loan operations 
centers. SBA also established 49 business recovery centers, 
where survivors could apply for a disaster business loan and 
receive additional business counseling from our local resource 
partners.
    Between our loan processing centers, call center, and on-
the-ground staff, SBA had over 2,400 disaster employees 
dedicated to Superstorm Sandy. This is in addition to our local 
district office staff and extensive network of resource 
partners across the region. As a result of this increased 
presence, we were able to meet with over 130,000 survivors and 
respond to over 212,000 phone calls throughout the declaration 
period. We approved over $2.4 billion in loans to more than 
36,000 homeowners, renters, and businesses, with an overall 
approval rate of 53 percent.
    While we are proud of our response efforts, we are always 
looking for ways to better support those communities impacted 
by disasters. In recent years, SBA has made a number of 
improvements that have allowed us to better respond to disaster 
survivors.
    For example, in order to create more transparent and user-
friendly processes, we streamlined our loan application forms 
and implemented a redesigned electronic loan application. In 
fact, we successfully increased the use of the electronic loan 
application from 26 percent to 55 percent over the past two 
fiscal years. We also designated case managers for each 
approved application, so borrowers know their principal point 
of contact when they have a question or need help through their 
loan closing disbursement process.
    These reforms played a key role in allowing SBA to 
effectively and efficiently respond to disasters--to Sandy and 
subsequent disasters like the massive tornado that struck 
Moore, Oklahoma, and recently, the flooding in Colorado. 
Whether on the ground in the affected areas or at regional 
centers, we keenly focus on meeting the needs of the families 
and businesses impacted by disasters.
    We know that recovery is a long-term process, and we are 
committed to ensuring that small business owners and their 
communities are able to emerge stronger than ever.
    Thank you again for inviting me to testify this morning, 
and I look forward to answering any questions.
    Mr. Barletta. Thank you for your testimony today, Mr. 
Rivera. I will now begin the first round of questions, limited 
to 5 minutes for each Member. If there are any additional 
questions following the first round, we will have additional 
rounds of questions, as needed.
    Mr. Nimmich, I understand that you have been on the ground 
in Colorado. If you can, give us what is the current situation 
there. And can you update the subcommittee on the response 
efforts occurring regarding the recent disaster in Colorado?
    Mr. Nimmich. Mr. Chairman, the search-and-rescue events in 
Colorado continue today. There are still communities that are 
isolated, there is over 300 unaccounted for individuals. FEMA, 
as well, is supporting State and local responders with four 
urban search-and-rescue teams that are going to those 
communities door to door, to ensure that every survivor is 
located and then provided the necessary resources to start 
their lives over.
    To date, there are over 8,000 registrants already in the 
FEMA's database, identifying themselves as potentially 
qualified for support, either from FEMA or Small Business 
Administration. And over 800 individuals have already been 
receiving support in terms of individual funding to take care 
of their immediate needs.
    There are over 16,000 houses that are likely destroyed, and 
that there are 20,000 additional houses that are endangered. 
This will be a long-term recovery. We don't have a good handle 
yet on how much of the infrastructure is impacted. We do know 
that there are sewage and wastewater facilities that are likely 
destroyed at this point in time, sir.
    Mr. Barletta. Mr. Rivera, I understand SBA is already on 
the ground in Colorado. Where are you in your operations there?
    Mr. Rivera. Yes, sir, Chairman. We were collocated with 
FEMA, and we joined them on the individual assistance side. We 
have deployed about 25 people so far. We are currently working 
with FEMA and the State to set up disaster recovery centers, 
and will also set up a couple of business recovery centers that 
include our small business development centers and our resource 
partners.
    Mr. Barletta. Thank you. Ms. Chavez, has HUD begun its 
operations in Colorado? And, if so, can you update us on those?
    Ms. Chavez. Sure. So we have started to assess damage to 
HUD assets. We are also working to collect the data as it is 
coming in from FEMA and SBA, so we can be ready to make a 
disaster recovery allocation to Colorado when we are ready. 
Data usually takes a month or two to come in, but we are 
starting very early to start to collect that.
    We are also ready to send TA providers to the State so they 
could start their recovery planning process, even before we 
make the allocation.
    Mr. Barletta. Thank you. Mr. Rivera, my bill, the Disaster 
Loan Fairness Act of 2013, it would allow for market-based 
interest rates for Small Business Administration disaster loans 
for homeowners, renters, and businesses. My question to you is, 
how do you think this interest rate change would impact the 
disaster loan volume that the Small Business Administration 
would be able to support?
    Mr. Rivera. Chairman Barletta, we feel that the interest 
rates that are currently being provided are reasonable on the 
homeowner side and the business side.
    For example, there are two rates, as you know. There is a 
credit elsewhere rate and noncredit elsewhere rate. On the home 
side it is less than 2 and 4 percent. On the business side it 
is 4 percent and 6 percent. From a credit worthiness 
perspective, we would have to do an analysis with the proposed 
bill and determine, you know, the number--how many more loans 
we could make, based on the interest rate adjustment.
    Mr. Barletta. Do you believe the SBA would experience a 
significant amount of new activity with a market-based rate 
system?
    Mr. Rivera. We would have to go back and do the analysis. 
It is just hard for me just to determine, based on that, and 
then the impact that it would have on the subsidy rate. But 
from, you know, having to safeguard taxpayer funds and stuff, 
there would probably be some sort of an adjustment to the 
subsidy model, which may result in an increase in subsidy. 
Current subsidy rate is about 11 percent, and we haven't run 
the numbers as far as what impact that would have to the 
subsidy model.
    Mr. Barletta. And what are you doing to ensure that the SBA 
loans are affordable? As I said, you know, when the floods hit 
Pennsylvania--I come from, as I told you, the coal region of 
Pennsylvania. And when people have lost everything that they 
have owned, it was pretty hard for me to go back there and tell 
them that I am from the Federal Government and, ``I can get you 
a loan at 6-percent interest.'' They would probably beat the 
daylights out of me at that point.
    So, what are we doing to make those loans more affordable?
    Mr. Rivera. So I clearly understand, from--where you are 
coming from. I was a former banker, I have been with SBA for 23 
years right now. We are the most aggressive lender in town. 
There is no doubt about it. We try to make every loan. The 
credit elsewhere rate, as you are citing, the 6-percent rate, 
does go to a smaller percentage of the borrowers that we have 
who do have credit elsewhere. A lion's share of our loans are 
made at the 4-percent rate. And it is a fixed rate that we can 
make up to 30 years.
    So, as I have mentioned before, we feel it is reasonable, 
and we try to make as many loans as we possibly can. On 
average, we are--as in Sandy, we are in about the 53-55 percent 
approval rate percentage.
    And when we don't make those loans, what we do--as a result 
of Irene, when we had the discussion a couple of years ago--we 
do refer these declined business owners to small business 
development centers so they can help with repackaging their 
debt structure. And what we found, as a result of the SBDC 
connection, is that we do--we are able to provide more loans, 
because the SBDC's can work successfully with their current 
bankers and their debt structure from that perspective.
    Mr. Barletta. Thank you. I would like to now recognize 
Ranking Member Carson for 5 minutes.
    Mr. Carson. Thank you, Mr. Chairman. Mr. Rivera, please 
describe the SBA's loan disaster program, such as the criteria 
used by the SBA to determine whether to grant an SBA loan, the 
debt-to-income ratio used, the loan recovery rate over the 
years, and the process used in the event of a default--the loan 
default rate.
    Mr. Rivera. OK. So, the process is we encouraged everybody 
in a Presidential declaration to start registering with FEMA. 
What we do is we provide FEMA with an income test table. And if 
they are below that income test table, those disaster survivors 
stay with FEMA and they go from--to the unmet needs program, 
where they get a grant immediately. If they are above that 
income threshold, they are referred to SBA. We encourage 
everybody to apply online with our electronic loan application. 
As I have mentioned, we have gone from 25 percent up to 55 
percent. So it is a pretty seamless process, from that 
perspective.
    When we look at an application, when we receive an 
application, we do an analysis. We look at income and debt. We 
actually use what is reported on an individual's Federal tax 
returns. We don't ask for copies of their tax transcripts--I 
mean Federal tax returns. We ask for them to give us 
authorization to get a copy of their tax transcript.
    So, what is reported to the IRS is what we use, from an 
income perspective. We run credit bureau reports, and we also 
credit score those individuals. If somebody has a credit score 
that is in the lower 500s, what we end up doing is we decline 
them and refer them back toFEMA on the homeowner side. And, as 
I mentioned to Chairman Barletta, we refer the businesses to 
the small business development centers.
    On average, you know, we make about 50 percent of the loans 
that we--that are--of the applicants that apply to us. Once we 
fully process and once we fully disperse the loans, we have our 
own--we are basically a disaster bank. We will hand off the 
relationship from our office to the Office of Capital Access 
that service the loans. They are very lenient, from the 
perspective--from a collection perspective. But we do follow 
private-sector collection practices. On average, home loan 
default rate is about 10 percent, and the business loan default 
rate is about 15 percent.
    Mr. Carson. Thank you. Ms. Chavez, what types of housing 
tools did HUD use in relationship to Sandy to provide housing 
to displaced residents, especially for low-income individuals? 
Did HUD have adequate authority to implement all the various 
housing options considered?
    Ms. Chavez. Yes, we do. In fact, the Act provides for HUD 
to approve the jurisdiction's plan. So when State of New 
Jersey, New York, New York City submitted their plans, they 
needed to ensure they were meeting the housing needs of low-
income individuals, and also address damage to public housing 
units and include that as part of their plan.
    So, their housing programs really include the spectrum of 
assistance to low-income individuals, development for 
multifamily rental housing, as well as assistance to 
homeowners.
    Mr. Carson. Thank you. Mr. Nimmich, FEMA's ability to use 
cost estimating was first authorized in the Disaster Mitigation 
Act of 2000, yet it was never implemented. That authority was 
expanded on in the Sandy Relief Act. What obstacles or 
challenges, in your mind, if any, have been identified that may 
impact implementation and use the cost of estimating authority?
    Mr. Nimmich. I think the biggest challenge is the 
uncertainty of a new program. We have already started and have 
actually implemented a program with Vermont that was signed on 
the 29th of August of this year. We are working very closely 
with Oklahoma. But any time you go from a well-established 
process of actual cost to a new process of estimation, where 
the grantee is ultimately responsible for the final cost of the 
improvement, or the replacement, there is a certain degree of 
uncertainty.
    So, we are in an education program, sir, to make sure that 
they understand, and that we use very good cost estimates from 
both the grantee's perspective, as well as FEMA's perspective, 
to ensure that we have a capability of completing that project 
within the estimated cost.
    Mr. Carson. Thank you, Mr. Chairman. I yield back my time.
    Mr. Barletta. Thank you, Ranking Member Carson. I would 
like to recognize Mr. Walz for 5 minutes.
    Mr. Walz. Thank you, Chairman. And I would like to thank 
each of you and the folks who work in your agencies for being 
there at some of the most difficult times for our constituents 
across the country. And my district is no different. A 2007 
flood, each of your agencies were there, providing that 
assistance and trying to work through the individual issues. 
And they are always challenging.
    I have a specific question, Mr. Nimmich, to help me on 
this. We had an ice storm in April of this year. And, of 
course, those most often--the most devastating part is it pulls 
down our electric utilities. And my district, being rural 
Minnesota, just like a large part of the country, is served by 
rural electric cooperatives. And those cooperatives serve 12 
percent of the population, but cover over 55 percent of the 
geographic land. So they are nonprofits, it is very, very 
narrow.
    Well, in this ice storm, brought down lines, we applied to 
FEMA to try and get help. FEMA denied two of my cooperatives, 
Federated and Nobles, any help because of their determination 
that they did not have--I guess the word here is ``appropriate 
board policy'' on this. The problem we are having is the 
interagency fight. These cooperatives follow rural utilities, 
RUS, Department of Agriculture. The proposal is in there.
    Now, this is not a question of whether there was 
maintenance on the line. That is not in question. It was done 
right. It wasn't in paper accordingly. Their confusion lies is 
their main funder is RUS loans. And they followed those 
procedures absolutely correctly, but they are being denied the 
assistance that they were--they tried to appeal it, and the 
only thing we are hearing is a FEMA declaration that it wasn't 
appropriate board policy.
    So, this creates great confusion amongst them. It created--
again, cooperatives are so narrow, and their consumers are so 
narrow, their members, that one like this has a devastating 
impact on rates, 100-percent increases in some cases.
    And so, I guess my question is--and I am not putting--yes, 
I am putting you on the spot a bit--maybe more for your staff. 
We still don't understand. Those rules were not given 
correctly. It was an interpretation after the fact. No one has 
ever questioned the service commitment or how these were done. 
And all documentation indicates the lines were completed within 
FEMA guidelines. In no instance was a conductor replacement 
done incorrectly. No one is disputing that. But it is like, 
``You didn't have the right set of paperworks in the policy, 
and because of that we are denying you.''
    So, my question is, what is our course of action? This is 
devastating to these rural electrics, it is devastating 
economically. And they feel they followed exactly what they 
should, they saw the Department of Agriculture as the authority 
propagating the rules, not FEMA. So how do we go about that?
    Mr. Nimmich. So, Mr. Walz, I don't have the specifics of 
why the denial was put in place. But I will offer you that we 
will answer that question for the record.
    Mr. Walz. I appreciate that. And again, I want to be very 
clear. I thank all of you. These are challenging. Every 
individual situation in every disaster is different in its own 
way. I am very appreciative of the chairman and the ranking 
member in this committee I think trying to streamline this and 
trying to understand that, and recognize each of your agencies 
are absolutely critical. But if we can do a better job at it, 
then we should continue to try and do a better job. So I thank 
you for that.
    Mr. Nimmich. Yes, sir. I recognize the sense of 
frustration. And it does become more difficult, as we move from 
State and public-owned utilities to privately owned utilities, 
and it becomes a gray area. But we owe you a better answer, and 
we will provide one for the record.
    Mr. Walz. I appreciate that. I yield back, Mr. Chairman.
    Mr. Barletta. Thank you, Mr. Walz. I would ask unanimous 
consent to insert into the record a letter from the BuildStrong 
Coalition, thanking the committee for today's hearing, and 
encouraging us to consider mitigation strategies for saving 
lives, reducing property damage and Federal disaster costs. The 
Coalition consists of a variety of fire service groups, 
property insurers, and code councils.
    [No response.]
    Mr. Barletta. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2819.008
    
    [GRAPHIC] [TIFF OMITTED] T2819.009
    
    [GRAPHIC] [TIFF OMITTED] T2819.010
    
    I would now like to recognize Ms. Edwards for 5 minutes.
    Ms. Edwards. Thank you, Mr. Chairman. And it is great to 
see the leadership of this committee including our new ranking 
member, as well. And thank you all for--the witnesses today--
for your testimony.
    I was just recently at a family reunion and one of my 
cousins is still displaced from Hurricane Sandy and was just 
incredibly frustrated by the process of trying to figure out 
getting assistance and rebuilding, moving from, you know, one 
temporary housing location to another temporary housing 
location. And I sympathized with her, but I don't know what an 
answer is for a family like that. And you can imagine the 
challenges also still trying to maintain getting up and going 
to work every day, and trying to balance all of this.
    And it is true that across this country, whenever we have a 
disaster, we expect that our Government, whether it is our 
local and State government or our Federal Government, to be 
able to, you know, respond in a time of need. And I find it 
very, you know, amazing that, you know, for all of the beating 
up on Government that goes on around here, and I look at the 
work that your agencies do and that so many of your workers do, 
and when it comes to a disaster, the first thing that we call 
for is Government.
    And, thankfully, we have learned a lot over the last 
several years. I know your agencies have. I have seen on the 
ground--members of this committee actually went up to New York, 
New Jersey, to visit with some of the immediate responders and 
saw, on the ground, the coordination that goes on with FEMA, 
with various State and local partners and agencies. And we can 
see that there are problems, but there are also some things 
that are really working well.
    I, you know, witnessed, for example, the coordination that 
is taking place that allows flexibility for FEMA to make 
determinations about what kind of mitigation assistance to 
offer homeowners who may be able to stay in their home, even 
though their home doesn't necessarily have water or 
electricity. That actually ends up saving us money, because you 
are able to engage in that kind of flexibility. So I really do 
appreciate the work that you do.
    And I know in Maryland, you know, we were fortunate, where 
other people were not. Our Eastern Shore was skirted by 
Hurricane Sandy. We received about $8 million in assistance. 
You know, any State or jurisdiction always wants to receive 
more.
    But my question just to you is, you know, when you think 
about the ability to pay and what is considered to calculate 
income and debt ratios, I am curious as to how you look at a 
business or a homeowner that has lost everything and still has, 
even with an insurance payment, still has a piece of a mortgage 
or a business loan to repay, and how you consider that in your 
determinations of income and ability to pay back a loan.
    And I am also curious as to what kind of pressure is 
brought to bear on banks and financial institutions to make 
loans that, even if guaranteed by the SBA, for example, that it 
doesn't necessarily mean that the financial institution is 
going to make the loan. And so I wonder what you do in those 
circumstances to more strongly encourage those institutions to 
give up their capital to make these loans that, in many cases, 
are like 100-percent guaranteed. Thank you.
    Mr. Rivera. Thank you, Congresswoman Edwards. The disaster 
loan program is--the SBA disaster loan program is a direct loan 
program, contrary to the SBA's 7(a) and 504 loan programs, 
which are--you know, it is a guarantee based on a percentage 
worked out with the bank.
    In situations where we are working to respond to 
individuals----
    Ms. Edwards. Is that 100 percent direct?
    Mr. Rivera. Yes, the SBA disaster loan program is direct. 
And that is the 11-percent subsidy cost that the--for--it is 11 
percent, or 11 cents on every dollar is what we get from the 
taxpayers. It is a subsidized program, from that perspective.
    The--we look at the 3 years prior to the disaster. So, in 
situations where somebody is completely wiped out or partially 
damaged, or whatever the uninsured loss is, what--we encourage 
them to apply with us, we will try to make the loan, and we can 
start the rebuilding process while they work with their 
insurance company to try to get, you know, back to where they 
were prior to the disaster, from that perspective.
    If they have an existing SBA-guaranteed loan on the 504 
side, we actually reach out to the lender and ask that they 
provide some sort of deferment period so there is no payments 
made during that 3-, 6-, 9-, 12-month period, where it goes 
from a recovery perspective. And also, we stage our first 
payment after the recovery has been completed. So, it takes 
them 3 months, 6 months, 9 months, 12 months to rebuild, we can 
go up to a couple of years if we need to, in order to make it 
as flexible as possible for the business.
    Ms. Edwards. And what about for homeowners?
    Mr. Rivera. Homeowners, it is the same situation. Most 
insurance--I mean most homeowners' mortgage companies are--they 
are pretty straightforward. If they don't provide their monthly 
payment, they probably fall into foreclosure. In situations 
where there is walk-away states, we have discussions with the 
mortgage company and with the individual on what they plan to 
do and how they plan to proceed. But we follow the same--we 
request the same type of deferment process for individual 
homeowners that have existing mortgages, where they have lost 
their house.
    Ms. Edwards. Is that--I apologize, Mr. Chairman, but is 
that also true? Because one of the things that I have heard are 
frustrations is about homeowners who are also business owners 
and they have used their home to get a second mortgage to 
subsidize--to--you know, to help them with their business, and 
they fall into this kind of in-between category.
    Mr. Rivera. So, you know, we treat them as--for example, 
there are a lot of home-based businesses. So, if you have a 
home-based business and you are damaged by a disaster, we will 
go ahead and make you a home loan on the physical side. And we 
can also make a physical business loan for any equipment that 
was lost, or anything regarding the home-based business, and 
then provide a working capital loan to help them with their--
pay their fixed operating expenses during the disaster period 
while they recover.
    Mr. Barletta. Thank you. The Chair now recognizes Mr. 
Mullin for 5 minutes.
    Mr. Mullin. Thank you, sir. Appreciate once again to be 
here. Sorry I have to run in and run out. That is the juggling 
of, I guess, being elected now.
    My question is for Mr. Nimmich. Am I saying that right, 
sir?
    Mr. Nimmich. Nimmich.
    Mr. Mullin. Nimmich. OK, I am sorry. Can you explain how 
FEMA applies its policies to electric utility repair companies 
to applications for public assistance for electric 
cooperatives? How does FEMA manage the process so that regions 
that develop and apply standards that are outside FEMA's own 
policy? What is FEMA doing to address inconsistency of rulings 
and decisions between its regions?
    Basically, what I am saying is that there has been a lot of 
inconsistency when FEMA has been needing to be called in for 
assistance with these co-ops. And when we are trying to get to 
a role that everybody is dealing with, we seem to have a lot of 
people injecting their own opinions on the role of FEMA.
    Mr. Nimmich. As I indicated to Representative Walz, when it 
comes to electric co-ops, you start into that gray area between 
publicly owned and privately owned entities.
    I can't give you the specific answer at the moment, but I 
will answer your question, Mr. Mullin, for the record.
    Mr. Mullin. OK. The issue--let me address it--to be a 
little bit--bring it down to a different level. I am from 
Westville. I live right on the border. My back fence is 
literally Arkansas. Westville, Oklahoma-Arkansas back fence. 
When a ice storm came in, we were having issues with being able 
to bring in utility companies over the State line to help with 
repairs to our electric system because of an interpretation 
that we couldn't find--saying that we couldn't bring out-of-
State contractors to help us in the repair if we were deemed to 
have the manpower to do it, no matter how long it was going to 
take.
    That was an issue. When you are on a border--I can 
understand that if maybe you live in Oklahoma City. But when 
you live in a border town like ours, that creates some pretty 
big problems.
    Mr. Nimmich. Sir, so are you talking about the decision on 
whether we would fund the support or the resources from another 
State? Because the utilities usually have emergency management 
agreements, where they work with each other----
    Mr. Mullin. Right.
    Mr. Nimmich [continuing]. To support it. So I presume you 
are getting to the point you were denied payment because the 
decision was made that the utility could have affected its own 
repairs, as opposed to using an EMAC-type of support.
    Mr. Mullin. I don't know the details to it. We were told 
that FEMA wasn't going to pay for out-of-State contractors to 
come in and help us.
    Mr. Nimmich. OK, so that is part of the Federal 
coordinating officer's processes of determining what are 
equitable costs or not equitable costs. The question, I think, 
is that the cooperatives become a gray area. And I owe you an 
explanation of what is eligible and what is not eligible in 
costs for a cooperative, in terms of repairs to the electric 
system, and I will provide that for the record.
    Mr. Mullin. OK. Appreciate it. Mr. Chairman, I yield back.
    Mr. Barletta. Thank you, Mr. Mullin. Mr. Nimmich, 
Pennsylvania was hit with severe weather and flooding during 
June and July. However, last month, Pennsylvania was denied a 
request for major disaster declaration based on FEMA's 
assertion that these storms were not part of the same weather 
system. Now, this conclusion directly contradicted the 
conclusion of the National Weather Service that indicated the 
same weather system caused these storms.
    Now, disaster declarations have been issued for other 
States in which storms occurring over a period of time were a 
part of the same system.
    My question is, what are the clear criteria that FEMA uses 
to determine if--whether events are part of the same overall 
system? And then how are they applied in this particular case?
    Mr. Nimmich. Chairman Barletta, we currently have the 
appeal from the State of Pennsylvania for that request for a 
major declaration, and it is in processing now. We work very 
closely with the National Weather Service in terms of 
identifying what are, in fact, complete cells or not cells. We 
have gone back to them for validation and make sure we have the 
right interpretation of that weather pattern at that time, and 
it will be reviewed as part of the process of the appeal.
    Mr. Barletta. Thank you. How do you anticipate the reforms 
in the Sandy Recovery Improvement Act may be used in the wake 
of the recent storms and flooding in Colorado?
    Mr. Nimmich. Administrator Fugate has already had 
discussions with the Governor, and the Governor clearly is 
interested in the alternate public assistance procedures that 
would allow him to rebuild better and stronger, based on 
accurate assessments of what the damage is. We fully expect 
that both the debris and the alternate procedures, public 
assistance procedures, will be utilized by the State of 
Colorado, as the debris pilot was used in the State of Oklahoma 
for the Moore tornadoes.
    Mr. Barletta. Mr. Nimmich, as you know, we are in the 
process of drafting a FEMA reauthorization bill. In the Sandy 
rebuilding strategy report issued last month it recommends 
cutting red tape, but gives little guidance to Congress as to 
how to do so. Are there additional authorities or reforms you 
believe are needed to improve--to further improve recovery and 
rebuilding efforts following disasters?
    Mr. Nimmich. Mr. Chairman, the authorities that this 
committee helped give us in the Sandy Recovery Act are a long 
way forward to being able to be more efficient, more flexible, 
and more capable of meeting States' needs. We are just at the 
part of implementing those particular elements of the Recovery 
Act, and we do not, at this point in time, have additional 
requests of the committee.
    However, as we do work these procedures through, and 
identify areas where there may be additional capabilities, we 
will come back to the committee for that--or to provide that 
information.
    Mr. Barletta. Now, as you know, earlier this year we 
enacted reforms to the recovery process through the Sandy 
Recover Improvement Act. That Act was intended to cut through 
the red tape and speed up the rebuilding process. How many 
applicants have accepted the public assistance pilot program?
    Mr. Nimmich. Thus far, Mr. Chairman, the State of Vermont, 
not having started any of the construction work on their damage 
from Hurricane Irene, has moved forward and accepted the 
alternate procedures.
    The challenge we have is, as I have indicated, alternate 
procedures create a degree of uncertainty from what has been a 
standard process. So we are actively engaging with the State of 
New York, the State of New Jersey, Oklahoma, Colorado, Alaska, 
all of these States, to ensure they completely understand the 
new alternate procedures and are comfortable with them, so that 
we can move forward. That education process is taking some 
time.
    Mr. Barletta. Are there any regulatory or legislative 
hurdles preventing applicants from not wanting to use the 
program?
    Mr. Nimmich. Not at this time.
    Mr. Barletta. Ms. Chavez, FEMA mitigation projects meet a 
cost-benefit test in order to receive funding. HUD has billions 
of dollars for mitigation after Sandy. Does HUD require a cost 
benefit test? And, if not, how do you ensure taxpayer dollars 
go to the most beneficial projects?
    Ms. Chavez. So the next allocation of Sandy dollars will be 
focused on infrastructure and, of course, on mitigation. And I 
think that when we issue the notice, you will be happy to see 
the requirements that we are placing on grantees to ensure that 
they analyze the cost benefit of the project.
    But even in the regular projects, and what they are doing 
now with housing and small business, we do ensure that they are 
really addressing just the unmet need. So our grantees are 
required to look at all the financial assistance that has been 
provided, again, by FEMA, SBA insurance, any other sources, 
before they actually fund unmet need.
    So, our disaster recovery funding is focused on ensuring 
that they are really addressing the unmet need and not 
duplicating benefits.
    Mr. Barletta. Thank you. The Chair now recognizes Ranking 
Member Carson.
    Mr. Carson. Thank you, Mr. Chairman. Madam Chavez, when 
Congress enacted the Sandy supplemental appropriations bill 
earlier this year, we effectively required grantees to expend 
the funds within 24 months of the funds being obligated. In 
order to ensure that this process is transparent, please 
describe the process HUD uses to submit waiver requests to OMB, 
the type of data provided to OMB, and what information about 
the request, if any, that you share with the grantee.
    Ms. Chavez. Sure. So, first of all, you know, we ask 
grantees to obligate the funds that they are going to need 
immediately. So, again, if they have a 2-year expenditure 
deadline on all allocations. So, although we may allocate a 
large portion of their grant, they only have to obligate with 
us, in terms of a grant agreement, the funds they are going to 
use immediately. Because as soon as they obligate, that is when 
the 2-year clock starts.
    But in terms of the--to OMB, we have submitted our proposal 
on how we will be approving waivers as grantees request them 
from HUD. And we are clear that some activities take much 
longer, and will take much longer than 24 months. You know, 
housing rehab is usually very fast. Of course, infrastructure 
can take years. So what we are asking grantees to do, as they 
start to request waivers--and, of course, that has not started 
yet--but when they do, is to outline the type of activity they 
are requesting the waiver, and the reasons why. So we have a 
whole system that--but the waivers will come through to HUD, 
and HUD will then review them and provide the approval.
    Mr. Carson. Recently there have been complaints by Sandy-
impacted residents about mold growth in their homes. Does HUD 
have any program to help address these mold issues?
    Ms. Chavez. CDBGDR, the recovery funds, can be used for 
mold remediation. And we have made that clear to grantees and 
provided a lot of guidance on that issue. And we are also going 
to reinforce it in the next notice, so the grantees are clear 
on that----
    Mr. Carson. Thank you.
    Ms. Chavez [continuing]. Activity.
    Mr. Carson. Mr. Nimmich, FEMA has adopted wildfire 
mitigation policies for hazard mitigation grant programs and 
the pre-disaster mitigation programs. Has FEMA examined the 
debris removal program in forested areas, and evaluated how the 
debris removal program can be also used to mitigate wildfires?
    Mr. Nimmich. The debris removal program is associated with 
a disaster. There are wildfires that qualify, and then there 
are some that are not. We have not had a request, nor have we 
reviewed how the debris removal program may remove what is 
normally a Forest Service requirement to take out the 
undergrowth or the challenges of the fuel for the fire.
    Again, debris has to be associated with the disaster. So it 
would be removing the burnt debris out, rather than a pre--the 
debris program would not take out the fuels that exist pre-
fire.
    Mr. Carson. Thank you, Mr. Chairman. I yield back my time.
    Mr. Barletta. Thank you. I expect there will be additional 
questions that will be submitted for the record. And I welcome 
Ranking Member Carson to submit any that he has, as well.
    I would like to thank you all for your testimony. Your 
comments have been very helpful to today's discussion. I will 
now call on our second panel.
    I thank you. On our second panel we have Mr. Glenn M. 
Cannon, director of Pennsylvania's Emergency Management Agency, 
National Emergency Management Association; Mr. Gayland Kitch, 
director of emergency management, city of Moore, Oklahoma, U.S. 
Council of the International Association of Emergency Managers; 
and Mr. Michael Finley, chairman, Confederated Tribes of the 
Colville Reservation.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Barletta. Without objection, so ordered. Since your 
written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Mr. Cannon, you may proceed.

  TESTIMONY OF GLENN M. CANNON, ESQ., DIRECTOR, PENNSYLVANIA 
    EMERGENCY MANAGEMENT AGENCY, ON BEHALF OF THE NATIONAL 
 EMERGENCY MANAGEMENT ASSOCIATION; GAYLAND KITCH, DIRECTOR OF 
EMERGENCY MANAGEMENT, CITY OF MOORE, OKLAHOMA, ON BEHALF OF THE 
  U.S. COUNCIL OF THE INTERNATIONAL ASSOCIATION OF EMERGENCY 
MANAGERS; AND MICHAEL O. FINLEY, CHAIRMAN, CONFEDERATED TRIBES 
                  OF THE COLVILLE RESERVATION

    Mr. Cannon. Thank you, Chairman Barletta and Ranking Member 
Carson, for the opportunity to represent the National Emergency 
Management Association this morning, along with my home State 
of Pennsylvania, at this important hearing today.
    Sandy was a unique storm in that, since it was so 
widespread, it gave us the opportunity, as a Nation, to reflect 
back on what happened: improvements that can be made, how to 
implement those improvements, and an evaluation of the final 
products. I will cover these aspects today of Sandy and her 
aftermath.
    As Sandy moved towards the east coast, Pennsylvania closely 
monitored the storm and its projected tracks. The U.S. Army 
Corps of Engineers continually generated models utilizing the 
National Hurricane Center storm track predictions to project 
the storm's path and the anticipated catastrophic damages. We 
quickly deployed swift water rescue teams and other rescue 
assets, sought a Stafford Act declaration from the President, 
and prepared for the worst.
    Sandy's actual landfall occurred north and east of those 
projections. But flooding, widespread wind damage, 
infrastructure damages, extensive power outages, and 
transportation interruptions occurred throughout our State.
    The damage we experienced and subsequent Presidential 
disaster declaration was significant for us, but nothing near 
what our neighbors in New York, New Jersey, and Connecticut 
experienced. We are all well aware of the scale and scope of 
the damage to New Jersey. But the true story of success there 
is in the tremendous response and recovery they mounted. I 
worked with my counterpart there to help put together this 
testimony today, and he gave me some thoughts which he would 
like me to share with you.
    In the month following the storm, New Jersey quickly began 
focusing on long-term recovery challenges. The Governor's 
Office of Recovery and Rebuilding directed all stakeholders in 
State government to consider strategic approaches to rebuild a 
safer, stronger, and more resilient State. Now, 11 months after 
the disaster, New Jersey is still working to meet unmet needs. 
But by continuing to work with HUD, utilizing community 
development block grant funding, working with their new 
reconstruction, rehabilitation, elevation, and mitigation 
program, and traditional FEMA programs, I am confident that 
they will prevail. And, as you recognize, they recently had a 
set-back with a fire on their boardwalk, which undid much of 
their work.
    So far in New Jersey, FEMA's assistance has amounted to 
$1.1 billion in Federal allocations, $388 million approved for 
housing and other needs assistance, $650.6 million in Federal 
share obligated for public assistance, and $35 million in 
Federal share for hazard mitigation.
    After the storm, however, is when the real change started 
to come about. Your committee and partners in Congress swiftly 
moved to pass critical disaster aid, as well as the Sandy 
Recovery Improvement Act. Once NEMA had adequate time to 
address all these sweeping changes, the association has 
enthusiastically come to support this legislation. We dedicated 
more than 7 hours of discussion time on the agenda at our mid-
year forum, just 3 weeks after its passage. We also submitted 
comments to FEMA on the new individual assistance program and 
the strategy of reducing costs of future disasters. These 
comments on the strategy have been submitted, along with my 
statement, for the record.
    But perhaps nowhere have we seen firsthand the success of 
your legislation than in Oklahoma. After the massive sweep of 
tornadoes in Oklahoma back in May, they were able to act as the 
first test bed for the alternate procedures pilot program for 
debris removal. With that, they were able to utilize the 
sliding scale for accelerated debris removal, take advantage of 
recycling revenues from that debris, reimburse straight time 
for labor costs, and allow an increased Federal reimbursement 
share for two communities that had in place debris removal 
plans before the event. These reforms are working and 
demonstrating how Government can work smarter in disaster 
recovery.
    So far, we applaud FEMA for their efforts and look forward 
to continuing our work with them and you to ensure the Sandy 
Recovery Improvement Act is implemented smartly.
    Thank you again for the opportunity to testify, and I will 
look forward to any questions you might have.
    Mr. Barletta. Thank you for your testimony, Mr. Cannon.
    And, Mr. Kitch, you may proceed.
    Mr. Kitch. Chairman Barletta, Ranking Member Carson, and 
distinguished members of the subcommittee, good morning to you. 
My name is Gayland Kitch, and I am representing the United 
States Council of the International Association of Emergency 
Managers. It is an honor to provide testimony today concerning 
recovering quicker and smarter from disaster.
    During my 22 years as the director of emergency management 
for the city of Moore, Oklahoma, I have seen violent tornadoes 
damage parts of my city on several occasions. I suspect many of 
you watched our large, violent tornado live on television on 
the afternoon of Monday, May 20th, of this year. Winds in this 
storm are estimated to have been over 200 miles per hour. The 
damage from this storm has been rated by the National Weather 
Service as EF5.
    The tornado began near New Castle, Oklahoma, and moved 
northeast into Oklahoma City. It entered my city at our west 
city limits and tore a path of destruction one-half-mile wide 
as it continued to track completely through Moore. Some 14 
miles from its beginnings, the tornado finally dissipated east 
of my city. In its wake, the storm left 24 fatalities and 
hundreds of injuries. It destroyed more than 1,300 homes within 
my city, 2 elementary schools, our hospital, post office, some 
50 businesses, and several beautiful parks.
    Unfortunately, my city has a history with tornadoes, with 6 
separate events in the past 15 years. This history includes 
another F-5 tornado, which occurred on May 3, 1999. The highest 
winds ever recorded, 316 miles an hour, were measured in that 
storm. More than 800 homes and numerous businesses were rebuilt 
then, after that.
    We deeply appreciate the continuing support that this 
subcommittee has provided to the emergency management 
community, particularly your strong support in strengthening 
FEMA and in streamlining disaster assistance. This has 
contributed greatly to our city's preparedness and ability to 
respond and recovery from events, such as our recent tornadoes.
    For instance, emergency management performance grant 
funding received by the city of Moore allows us to emphasize 
mitigation and preparedness activities. Many of these 
activities have promoted awareness of hazards and disasters 
within our community, and raised the level of preparedness of 
both our residents and responders alike.
    In 2009, the city of Moore and the Moore public schools 
sent a dozen responders and school administrators to FEMA's 
Emergency Management Institute. There we learned about the 
various hazards at our schools, and were trained on how to plan 
for emergencies occurring at our educational campuses. Many of 
the lessons we learned at EMI were put into action during this 
last disaster and in previous emergencies.
    Our city strongly endorses the hazard mitigation grant 
program. After the 1999 and 2003 tornadoes, HMGP funding 
assisted many of our residents in constructing safe rooms in 
their homes. As a result of this, safe rooms are now a widely 
accepted preventative measure for severe winds in our city and, 
indeed, throughout Oklahoma. Nearly 15 percent of the homes in 
our city now have safe rooms. And nearly a quarter of those had 
funding assistance through HMGP. There is no doubt that these 
safe rooms saved many lives on May 20th.
    HMGP funding has also allowed us to expand our outdoor 
warning siren system as our community has grown, and we know 
that these sirens were a key component in alerting our 
residents and guests of impending danger during our recent 
storms.
    As others have noted earlier today, our city has benefitted 
greatly from participation in FEMA's alternate procedures pilot 
program for debris removal that was part of the Sandy Recovery 
Improvement Act. This program afforded us the opportunity for 
reimbursement on a sliding scale, emphasizing expedient removal 
of some nearly 12,000 truckloads of tornado debris. From 
experience with previous events, we already knew the value of 
quickly cleaning our city, which promotes our swift rebuilding. 
However, this pilot program will result in an overall savings 
to our city conservatively approaching $1 million. We do have 
some suggestions for improvement to the pilot program, and we 
are passing those along.
    As I conclude, let me recognize not only FEMA and their 
programs, which have been so well supported by this 
subcommittee, but also the efforts of the thousands of 
volunteers from all over the Nation which have helped our 
community to pick up and dust ourselves off, as well as the 
many generous, heartfelt donations that we have received. Added 
to the Federal and State assistance and our own native Oklahoma 
resilience, we will soon return stronger and better. And our 
new motto is, ``We are more strong.''
    Thank you. I will be happy to answer any questions you 
might have.
    Mr. Barletta. Thank you for your testimony, Mr. Kitch.
    Chairman Finley, you may proceed.
    Mr. Finley. Thank you, Chairman. And good morning to you, 
Mr. Chairman and Ranking Member Carson. It is a pleasure and 
honor to be before you today to offer this testimony on behalf 
of the Confederated Tribes of the Colville Reservation. I 
presently serve as chairman. And this is now my fourth year as 
chairman for our tribes. We are located in northeast Washington 
State, have a land base of approximately 1.4 million acres, 
which is slightly larger than the State of Delaware. About 
800,000 of those acres is forest timber property, which--
historically, we have been a huge timber tribe, and that has 
been our main source of income for a number of years.
    Before I begin I would like to express my appreciation on 
behalf of the tribes for the subcommittee and the full 
committee's work on implementing the amendments to the Stafford 
Act, and--that--which allows tribes to make declarations 
directly to the President, rather than going through States. I 
am going to speak about an incident that occurred on Colville 
prior to those amendments being made. But I just wanted to 
recognize that at the outset, that we are extremely 
appreciative. It is something that the tribes have been looking 
for for a number of years. I personally have been working on 
that. And we are just now grateful that the committee was able 
to recognize those concerns and bring them forward into law. So 
we are greatly appreciative for that.
    In July of 2012 we suffered a pretty devastating disaster 
on Colville in the form of a wind storm and flash flooding that 
took place on several hundred thousand acres of our lands, but 
the primary focus, or at least the devastation, was more 
apparent in the center part of our reservation in our community 
of Keller. In some areas, the winds exceeded 100 miles an hour, 
which--in our area that is pretty extreme, given the large 
stands of timber that we have. They were unaware to sustain 
those winds, and so, consequently, a lot of our prime timber 
property in that area either broke in half or fell completely 
down. It was scattered all over that entire area.
    As you might imagine, we do have a lot of community members 
that live in that area. They experienced extensive damage. You 
know, some houses were destroyed by fallen trees, outbuildings 
were destroyed by fallen trees. And a lot of the 
infrastructure--power lines, et cetera--fell victim to that 
storm, as well. And so it took us a while to gather the pieces, 
so to speak. And, as I stated, this was prior to the amendments 
being made. So, luckily, we had a good relationship with the 
State of Washington, and we were able to work with them on 
having them include those portions of our reservation in the 
declaration that ultimately was approved.
    But in doing the work on the ground, our technical people 
had a lot of difficulty working with FEMA. There were a lot of 
laws, there were a lot of policies that really didn't apply to 
tribal lands, and especially with the incident that we were 
dealing with on the ground. It occurred at a--in a area--in 
areas where a lot of our tribal members would gather 
traditional foods. A lot of our members are subsistence 
gatherers still. And so a lot of those trees crossed roadways 
and pathways that took our members to these areas. And so, 
because of that, they were unable to get to those areas. And 
some of the areas today they are still unable to get to, 
because the FEMA debris removal that you mentioned, Mr. Ranking 
Member Carson, didn't apply, and it still doesn't.
    And so, not only did that create a problem for our people 
there, it creates a problem for fire hazards. We try to do our 
best to protect our forests and make them a sustainable--and to 
create a safer environment that was more like the historic 
levels that we once experienced. But, unfortunately, with those 
areas not applying to the Federal trust lands that we have on 
Colville Reservation, we are unable to clean up a lot of that, 
and a lot of it remains on the ground today, even drier than 
what they were before.
    Another problem we had was getting an emergency 
preparedness plan in place. And we were unable to access any 
Federal dollars for that. We ultimately use our own tribal 
dollars to get the preliminary draft out for that, and that is 
the draft we used when this disaster struck.
    And so, we are still at a disadvantage. We need the 
training and we need the resources to better equip our 
emergency management personnel. And I think that it isn't 
something that we need, the FEMA sponsored or supported 
training. We just--which is the current FEMA model. We need 
resources to do it ourselves. And we strongly believe we can do 
it ourselves. And we did a tremendous job, given the limited 
resources we had at the time.
    We also need to improve the coordination with other Federal 
agencies. During the course of cleanup and response, we ran 
into a situation to where some of the equipment we needed was 
readily available through the Bureau of Indian Affairs, but 
there wasn't an appropriate mechanism in place that allowed us 
to use those. And so, instead of using the warehouse that was 
full of the generators and all the back-up stuff that we 
needed, we had to seek outside sources to get those.
    So, I think moving in the future, if this committee could 
work on implementing MOUs or what have you through the 
Department of the Interior with BIA to have more access to 
those resources in the immediate nature, I think that would 
benefit not just Colville, but a lot of other tribes around the 
country.
    Same with the National Interagency Fire Center. Again, they 
had radio repeaters, generators, and stuff that they had on 
their shelves that, you know, we were willing to pay at cost 
out of our pocket. But there wasn't a mechanism within DOI that 
allowed for that accounting to take place.
    And so, I think there are just small changes that could be 
made that can help not just our tribe, but other tribes 
nationwide, as they face similar disasters on their homelands.
    So, earlier, when Mr. Walz mentioned that due to 
technicalities they were unable to access certain funding 
streams to help to clean up the mess or to pay for some of the 
costs that were incurred as a result of the disaster, you know, 
we faced a number of those on many different levels. And a lot 
of those are explained in my original testimony that I had 
submitted to you. So I encourage you to please look over those 
and take those into consideration as you implement changes to 
the FEMA, moving forward.
    And lastly, I just want to mention this because it was a 
great burden to me, as a tribal leader, and to many of us 
working on the ground, that if FEMA's public assistance team, 
when they arrived, just the mere fact that they are named 
``Public Assistance'' gave the false hope to our people that 
they are there to provide some of the most basic needs, such as 
drinking water, supplies, and tangible relief. But that was not 
the case. They were there for the Government to assess the 
damages to decide whether or not they met the threshold.
    Ms. Edwards had mentioned earlier that she had a family 
member that was experiencing problems getting housing. We have 
the same problem at Colville with some of the lands that were--
that sustained damage on Federal properties. The individual 
assistance program does not cover those damages on trust lands, 
incurred on trust structures on our reservation. So many of our 
tribal members live on our trust lands: 1.2 of the 1.4 million 
acres is in trust on Colville. So you can imagine that a lot of 
those properties that did sustain the damage, they were unable 
to access those programs.
    And so, again, here--we would highly encourage you to look 
at those changes and consider them as you make amendments.
    With that, that concludes my oral testimony at this time. I 
would be happy to answer any questions. I appreciate your time.
    Mr. Barletta. Thank you for your testimony, Mr. Finley. I 
will now begin the first round of questions limited to 5 
minutes for each Member. If there are any additional questions 
following the first round, we will have additional rounds of 
questions, as needed.
    Mr. Cannon, I saw firsthand how devastating Hurricane Irene 
was and how our State was impacted by that and Hurricane Sandy. 
Can you tell us where you are in the rebuilding process for 
both of those disasters?
    Mr. Cannon. We suffered significant housing loss in Irene 
and Lee, and then exacerbated with Sandy. So we have been 
moving forward with temporary housing, sheltering, and then 
into the mitigation program. And we are in the process now of 
conducting the buy-outs for the areas that are flood-prone and 
have repetitive flooding. That process is extremely 
bureaucratic and time-consuming. The environmental and historic 
reviews consume significant time.
    And, additionally, in northeastern Pennsylvania, there are 
a lot of mineral rights that were transferred to someone 100 
years ago that is no longer in existence. And under FEMA's 
policy, when you buy out a property nothing can be on the 
surface of that ground again. And so, the fear that someone 
from 100 years ago might show up and put some structure to 
remove the coal prevents that house from being able to be 
purchased. So we have been doing a lot of work trying to deal 
with the mineral rights issues as it delays the mitigation 
process.
    You are probably aware that in Sandy, you know, we had 
extremely difficulty with that declaration and that process. I 
tried to get people to understand that there is a river called 
the Delaware River that is between New Jersey and Pennsylvania. 
On the New Jersey side of the river they were declared; on the 
Pennsylvania side of the river they were not declared. And 
there certainly is no wall that goes down the middle of the 
river that stopped the storm. So, to go back to the public and 
try to explain that is extremely difficult.
    One of the most amazing issues was the denial of emergency 
protective measures for the communities that prepared for Sandy 
as a historic event. You know, never heard of before, 
unprecedented. We took great steps to prepare for that storm. 
Pennsylvania is a Commonwealth with 2,600 local municipal 
governments. People preparing for that event spent their public 
works overtime money, their salt budgets for the winter, all 
getting ready, and then we are not reimbursed for that. So, the 
next time I approach them in the next major event, they will 
say, ``I am sorry, but I can't do as much as I did the last 
time, because we just can't afford it.''
    And so, it was an amazing adventure to see a denial of a 
declaration not based in law and not based on the CFR, but on a 
new standard of review that evaluated how you prepared based on 
the threat by the impact you had after the event. No one knows 
what the impact is going to be when you have the storm of the 
century that you are preparing for.
    So it has been difficult, and we continue to file appeals, 
and we will attempt to take every option available. Because at 
the end of it, of that process, are the people who suffer from 
these storms and these events.
    Mr. Barletta. Thank you, Mr. Cannon. As a former mayor, I 
certainly understand what is involved in being prepared for a 
storm and the costs that are incurred, especially when so many 
communities are cash-strapped and do what they can to try to 
prevent lives from being lost and property lost, which--I 
certainly understand what you are saying.
    From your perspective, how well has Federal coordination 
with State and local governments worked in the recovery 
process?
    Mr. Cannon. That has been outstanding. Once we have gotten 
past our disagreements on things, the actual work itself has 
been outstanding. And I think key to the successful major 
disaster operations is the position called the Federal 
coordinating officer. And the FCO cadre, being highly skilled, 
highly trained, highly experienced, you know, they tend to try 
as much as possible to eliminate bureaucratic obstacles and to 
get the actual resources on the ground that people need to do 
it.
    And so, we have had a great working relationship. And 
together, between State resources and Federal resources, I 
think we have done a real good job on that recovery, working 
through those issues. But overall, it has been very good.
    Mr. Barletta. Thank you. The Chair recognizes Ranking 
Member Carson for his questions.
    Mr. Carson. Thank you, Mr. Chairman. Mr. Finley, in your 
testimony you suggest the need for tribes to hire and train as 
emergency managers. Has your tribe sent staff to FEMA's 
Emergency Management Institute for training, or do you have any 
suggestions on how FEMA can improve outreach about the 
availability of such training programs?
    Mr. Finley. I don't have the exact answer for that, other 
than I know I have talked with some of our emergency response 
individuals, and they had expressed concern over some of that 
training. And I didn't get into the exact details, but if you 
are interested in having that information I can certainly get 
that for you and make that available to you as soon as I 
possibly can.
    Mr. Carson. It would be helpful. Thank you.
    Mr. Finley. All right. Thank you.
    Mr. Carson. Mr. Kitch, do you have data or an estimate of 
how many of the private homes that are being built, or rebuilt, 
are incorporating mitigation activities such as safe rooms or 
different roofing techniques into the rebuilding of their 
homes? And what is the city doing to encourage residents to 
incorporate mitigation activities in their effort to rebuild?
    Mr. Kitch. Ranking Member Carson, thank you for the 
question. The--we are seeing a lot of the homes that are being 
rebuilt incorporating some sort of safe room or shelter within 
them.
    Mr. Carson. Good.
    Mr. Kitch. We will be encouraging that. Some of the long-
term recovery money that we are just now starting to receive we 
will be earmarking for assistance with safe rooms. And I know 
that several of the homes that we have already seen go up 
already have those in them. So----
    Mr. Carson. OK.
    Mr. Kitch. So there is quite a bit of activity with that. 
And I can tell you there is a lot of interest in my community 
for that, even from folks who weren't.
    Mr. Carson. Thank you. Mr. Cannon, based on your 
description, it sounds as though the State of Pennsylvania 
engaged in extensive preparedness for Hurricane Sandy's 
landfall. How have the extensive preparedness activities 
affected the State's recovery effort?
    Mr. Cannon. Well, certainly, where it really makes a 
difference is in the response to the event immediately. Because 
when you lean forward and prepare those resources, you can 
minimize loss of life and suffering.
    But on top of that, making sure that we prepare in terms of 
each county and each local government's preparedness reduces 
the impact, as well. So, when you can get people to evacuate 
ahead of time, rather than in the middle of the night, when 
your shelter system is open and in place, when you have done 
hazard mitigation planning on the front end, all of that helps 
reduce the impact to these bad events. It is when nothing has 
been done, and people just are lost, that it makes the 
situation much, much worse.
    Mr. Carson. Well, given the number of storms experienced in 
Oklahoma, I found it quite interesting in your testimony that 
you stated that most of the Oklahoma communities do not have 
debris management plans. Do you think that this is commonplace? 
And, if so, what is the reason?
    Mr. Cannon. I believe it is.
    Mr. Carson. OK.
    Mr. Cannon. And it is within the Improvement Act that the 
new pilot program will incentivize the local government to have 
a debris removal plan. So, while that hasn't been the case in 
the past, I believe we will see significant numbers of 
communities with those plans in the future.
    Mr. Carson. OK. Thank you, Mr. Chairman. I yield back my 
time.
    Mr. Barletta. Thank you, Ranking Member Carson. And the 
Chair recognizes Mr. Mullin for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman. My question will be to 
Mr. Kitch. You know, the idea that you have recently had to go 
through this horrific event and more, I would be curious to 
know, like I said when I had the opportunity to introduce you, 
the mistakes that you made that you got to correct with your 
second time and your third time going through this.
    On the first time I know you had to make mistakes. Not that 
they were detrimental mistakes, but they were mistakes. So 
could you share with this committee maybe some lessons that you 
learned, some things that you did different that maybe we could 
all take away and maybe apply them to different areas of the 
country if this ever happens again?
    Mr. Kitch. Thank you, Representative Mullin. Some of the 
challenges that I think that we have identified out of this 
round of tornadoes, number one, is our sheltering. As we spoke 
about a moment ago, we are working more on individual safe 
rooms for the residents of our city.
    For those who may not be from Oklahoma, we don't build 
basements there to a great degree, because the soils just don't 
allow that sort of thing to be done and--without the concrete 
cracking and them filling up with water.
    We also have recognized that we have a significant issue in 
sheltering in some of our public buildings such as our schools. 
And we have an initiative right now in our State legislature. 
We have several State legislators who are attempting to gather 
interest in a large bond from the State that would require and 
allow funding for the building of shelters in each one of our 
schools for the children and the staff that work there.
    The other challenge that we have definitely identified is 
that we are a little bit weak in our management of donations. 
We have received--you just cannot understand the amount of 
heartfelt donations that we have received from all over the 
country, and actually, from all over the world, that have come 
in by the truckloads. And the challenge there is that not all 
of the donations are necessarily appropriate for the type of 
event that we had, or the population of our city. And then the 
issue that goes along with, well, where do we put all of the 
stuff, how do we sort it, how do we make it available to those 
who do have needs, and what do we do with the rest of it.
    So, there is some significant challenges. And I don't know 
that we have necessarily had mistakes as such, but the--there 
is definitely a lot of work to be done in front of us.
    Mr. Mullin. Did you by any chance come up with a solution? 
I mean did you donate some of material back to other shelters?
    Mr. Kitch. The materials that we received--and are still 
receiving, I should add--were finally warehoused by the State. 
And my understanding is that they have, I think, taken care of 
most of that. And I am sure that a lot of that----
    Mr. Mullin. OK.
    Mr. Kitch [continuing]. Went elsewhere to other disasters. 
I can tell you all of these shelters in Oklahoma were 
completely full of items. And even our nonprofits----
    Mr. Mullin. Right.
    Mr. Kitch. We received, you know, truckloads of diapers.
    Mr. Mullin. Let me ask you one more question. Seeing that 
you have just gone through this disaster again, what kind of 
hurdles did you face with the coordinating between Federal and 
local situations that maybe could have helped speed up the 
situation to get help in areas of need?
    Mr. Kitch. We have actually been very pleased with this 
round, with the response from FEMA and their Federal partners. 
Having done this before, it hasn't always been that way. But I 
can tell you that during this round of tornadoes, FEMA's--some 
of their streamlined programs have certainly helped.
    And they have also streamlined some of their own procedures 
internally. I can tell you that within a day or two, that I had 
a--FEMA's single point of contact that was--he almost lived in 
my office with me for a while. And when he wasn't in my office, 
he was in our city manager's office. And he was our go-between 
for everything FEMA. And if we had a question, it didn't matter 
which part of FEMA we needed to deal with, he was our contact. 
And he--in addition to being just an outstanding gentleman to 
begin with, he completely streamlined that process for us. And 
I can tell you that my city management is so appreciative of 
that.
    Mr. Mullin. Thank you. Mr. Chairman, I yield back.
    Mr. Barletta. Thank you, Mr. Mullin. Mr. Kitch, in your 
testimony you account what happened leading up to the tornadoes 
in May. One aspect in particular you highlight was the 
importance of alerting the public in as many ways as possible.
    Our committee has a long history of overseeing the 
development of FEMA's integrated public alert and warning 
system, IPAWS, and we are exploring authorizing legislation as 
part of the FEMA reauthorization. Can you talk about how 
effective public alerts were, and did you utilize FEMA's 
alerting system?
    Mr. Kitch. Mr. Chairman, the IPAWS system, or the alerting 
system, is just starting to come online in Oklahoma right now. 
My understanding was that there was some limited alerting 
through that on May 20th. My particular device did not receive 
that. I have an older device, and it is not quite there yet.
    But I do know that there was some very limited use of that. 
So at this time it is probably not quite ready. At least--it is 
probably ready today. If we were to have the same event today, 
we would probably have a lot more to say about that. But it 
just wasn't quite deployed at the time of our tornado.
    Mr. Barletta. You also mentioned in your testimony how 
critical emergency management preparedness grants are in 
preparing the city of Moore for disasters. Can you explain how 
these funds helped prepare your city?
    Mr. Kitch. Absolutely. We have been a recipient of the 
emergency management performance grant for some many years, 
probably about 15 years, the entire time that we have had an 
emergency management full-time program. And without those 
funds, first of all, we probably wouldn't have an emergency 
management program and an emergency manager. We would probably 
still be in the days of having a volunteer emergency manager 
that worked either at some other job or may not even have been 
an employee of our city.
    The funds allow us to have the office, allow us to have the 
person, which then allows us to be more proactive in our city 
to write the plans that are necessary, to work with our 
citizens, to make trips to our senior citizens center, to work 
with the seniors on their preparedness activities. It is so 
critical to us.
    And I can tell you, as a person that is very active in 
Oklahoma emergency management throughout the State, that we 
literally would not have nearly the number of emergency 
managers in our State that we do now without these funds. They 
are absolutely critical, particularly in our smaller 
jurisdictions.
    Mr. Barletta. Mr. Cannon, the Sandy Recovery Improvement 
Act included an arbitration program to ensure there is a 
neutral process for resolving eligibility disputes between FEMA 
and the States. What do you think the benefits of these 
arbitration processes are, from a State's perspective?
    Mr. Cannon. It is one of the things in the Act that we 
really appreciate and look forward to it being successful. One 
of the greatest weaknesses in the relationship between FEMA and 
States is the ability to, one, have transparency of the 
process, but, two, to have a forum in which to appeal those 
decisions.
    When you file for a declaration and it is denied, your 
appeal goes back to the very person who denied you. And when 
you appeal that appeal, it goes back to that same person again. 
So you never have a chance to have a hearing on the issues.
    Now, after Katrina there was also an arbitration procedure 
temporarily in the Post-Katrina Reform Act for Katrina and 
Rita. That since had expired. You included one in this Act that 
is for Sandy.
    I think what we really need to is get some kind of a 
dispute resolution process that is permanent and ongoing in 
these relationships, so that we have a chance to understand why 
we were denied, but also to provide the argument on the merits 
that maybe something had been misinterpreted. There is no forum 
to do that. So I was--and most of my colleagues, as State 
directors, were very glad to see this arbitration section 
within the Sandy Improvement Act.
    Mr. Barletta. Mr. Finley, are there additional reforms or 
clarifications in the law that are needed to further streamline 
the rebuilding process? And, if so, what would they be?
    Mr. Finley. Yes. For tribal lands I think maybe needs--
there need to be some explicit language that distinguishes 
beyond urban parks, trees, debris that cover areas, access to 
those urban park areas, access to fishing areas, that would 
include more of an inclusive understanding and appreciation of 
the tribal perspective, that there are many tribes in this 
country that still rely on subsistence gathering activities, 
and that those roadways and pathways that obstruct those areas 
should be viewed in the same context as those others who are 
explicitly considered within the laws that exist today.
    Mr. Barletta. Mr. Kitch, how can we further streamline the 
rebuilding process?
    Mr. Kitch. The--one of the areas that I think that needs 
just a little bit of work is in the hazard mitigation planning 
process. We are finding that very cumbersome. I know that my 
jurisdiction, along with our county and another jurisdiction in 
our county, have been working on our plan for nearly 2 years 
now. And it seems to be being bounced back and forth between 
our vendor and our FEMA folks and our emergency managers. So 
that would certainly be one way.
    And the other way would simply to be continuing the support 
of the programs that we have now.
    Mr. Barletta. Mr. Cannon, what would further--streamlining 
can we do for the rebuilding process?
    Mr. Cannon. I think these are some good steps that you have 
already included. I think now--and I think Mr. Nimmich referred 
to it--the problem is right now it is just at the beginning. So 
they really haven't been tested and evaluated and implemented 
from real use.
    And so, right now, everything is projecting that it is 
going to be better. But there is no doubt that when you are 
trying to provide assistance to people, the process just slows 
it down greatly. So we have to eliminate as much bureaucracy as 
we can from the decisionmaking process and the implementation 
process.
    Mr. Barletta. Thank you. Ranking Member, a question?
    [No response.]
    Mr. Barletta. I would like to thank all of you for your 
testimony. Your comments have been helpful to today's 
discussion. I would also like to thank Ranking Member Carson on 
his first day. His experience in law enforcement will be a 
great addition----
    Mr. Carson. Thank you, Mr. Chairman.
    Mr. Barletta [continuing]. To this committee.
    Mr. Carson. Thank you.
    Mr. Barletta. I would ask unanimous consent that the record 
of today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    [No response.]
    Mr. Barletta. Without objection, so ordered. I would like 
to thank our witnesses again for their testimony today. If no 
other Members have anything to add, this subcommittee stands 
adjourned.
    [Whereupon, at 11:54 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
